No. 20-794
IN THE

Supreme Court of the United States
————
SERVOTRONICS, INC.,
v.

Petitioner,

ROLLS-ROYCE PLC, et al.,
Respondents.
————
On Writ of Certiorari to the
United States Court of Appeals
for the Seventh Circuit
————
BRIEF AMICI CURIAE OF
DR. XU GUOJIAN, LI HONGJI, ZHU YONGRUI,
TANG QINGYANG, CHI MANJIAO,
RONALD SUM, AND DR. ZHANG GUANGLEI
IN SUPPORT OF RESPONDENTS
————
KATHERINE BURGHARDT KRAMER
Counsel of Record
RONGPING WU
DGW KRAMER LLP
One Rockefeller Plaza, Suite 1060
New York, NY 10020
(917) 633-6860
kkramer@dgwllp.com
Counsel for Amici Curiae
June 28, 2021
WILSON-EPES PRINTING CO., INC. – (202) 789-0096 – WASHINGTON, D.C. 20002

TABLE OF CONTENTS
Page
TABLE OF AUTHORITIES ................................

iii

INTEREST OF AMICI CURIAE ........................

1

SUMMARY OF ARGUMENT .............................

9

ARGUMENT ........................................................

9

I.

Discovery Under Section 1782 Is Contrary to Key Favorable Characteristics of
Arbitration ................................................

11

A. Streamlined Discovery in Arbitration
Promotes Efficiency and Fairness ......

12

B. Allowing Section 1782 Discovery in
Aid of Arbitration Will Spawn Burdensome Collateral Litigation ............

13

C. Arbitration Supports Party Autonomy By Giving the Parties Control
Over the Proceeding ............................

16

D. Arbitrators Have Broad Discretion to
Manage Disputes, Leading to Streamlined Proceedings .................................

18

Discovery Under Section 1782 is Not
Necessary for the Successful Resolution
of Arbitration Disputes .............................

20

III. The Arbitral Panel is Only Empowered
for a Particular Dispute, Thus Limiting
its Role in International Comity and PreDispute Evaluation of a Section 1782
Petition ......................................................

22

II.

(i)

ii
TABLE OF CONTENTS—Continued
Page
A. Arbitration Panels are Not Equipped
to Offer Comity with Governmental
Tribunals..............................................

22

B. Because No Arbitration Panel Exists
Pre-Dispute for Assessment of Scope
of Proposed Section 1782 Discovery,
the High Deference Proposed by
Other Amici is Insufficient ..................

24

CONCLUSION ....................................................

25

iii
TABLE OF AUTHORITIES
CASES

Page(s)

Del. Coal. for Open Gov't, Inc. v. Strine,
733 F.3d 510 (3d Cir. 2013) ......................

15

Gushlak v. Gushlak,
486 F. App'x 215 (2d Cir. 2012) ................ 11, 17
HRC-Hainan Holding Co., LLC v.
Yihan Hu,
No. 19-mc-80277-TSH, 2020 U.S. Dist.
LEXIS 32125 (N.D. Cal. Feb. 25, 2020),
appeal filed sub nom. In re: Application
of HRC-Hainan Holding Co., LLC, No.
20-15371 (9th Cir.) ....................................

15

Intel Corp. v. Advanced Micro Devices, Inc.,
542 U.S. 241 (2004) ............................. 11, 22, 24
Republic of Kazakhstan v. Biedermann
Int’l, 168 F.3d 880 (5th Cir. 1999) ............ 14, 23
Servotronics, Inc. v. Boeing Co.,
954 F.3d 209 (4th Cir. 2020) .....................

13

Servotronics, Inc. v. Rolls-Royce PLC,
975 F.3d 689 (7th Cir. 2020) .....................

13

Volt Info. Scis. v. Bd. of Trs.,
489 U.S. 468 (1989) ...................................

16

STATUTES
28 U.S.C. § 1782 ..........................................passim
Act of Sept. 2, Pub L 85-906, § 2,
72 Stat 1743 ..............................................

23

iv
TABLE OF AUTHORITIES—Continued
TREATIES

Page(s)

Convention on the Recognition and Enforcement of Foreign Arbitral Awards, Art. V(d),
June 10, 1958, 21 U.S.T. 2520, 330 U.N.T.S.
42 ...................................................................

10

OTHER AUTHORITIES
Alan Redfern and Martin Hunter, Law and
Practice of International Commercial
Arbitration, Sweet & Maxwell 2004 ........

6

CIETAC, CIETAC 2020 Work Report and
2021 Work Plan, at https://tinyurl.
com/yvewk ph8 (last visited June 27,
2021) ..........................................................

8

CIETAC, 2015 CIETAC Arbitration Rules,
at http://www.cietac.org/Uploads/20190
2/5c6148b100105.pdf ........................... 14, 18, 21
HKIAC, 2020 Statistics, at https://www.
hkiac.org/about-us/statistics (last visited
June 27, 2021) ...........................................

8

HKIAC, 2018 Administered Arbitration
Rules, at https://www.hkiac.org/arbitrat
ion/rules-practice-notes/hkiac-administe
red-2018 (last visited June 27, 2021) ......passim
International Bar Association, IBA Rules
on the Taking of Evidence in International Arbitration, at https://tinyurl.com/
8m7jkh2a (Dec. 17, 2020) .........................

10

Roy Goode, Herbert Kronke and Ewan
Mckendrick, Transnational Commercial
Law, Oxford University Press 2007 .........

6

v
TABLE OF AUTHORITIES—Continued
Page(s)
S. Rep. No. 2392, 85th Cong., 2d Sess.
(1958) .........................................................

23

SIAC, About Us, at https://tinyurl.com/
74kfe22e (March 31, 2021) .......................

9

SIAC, Frequently Asked Questions, 14, at
https://www.siac.org.sg/faqs (last visited
June 27, 2021) ...........................................

9

SIAC, SIAC 2016 Rules, at https://www.
siac.org.sg/our-rules/rules/siac-rules-2016
(last visited June 27, 2021) .....................passim

INTEREST OF AMICI CURIAE1
The undersigned amici curiae (together, the
“Arbitrators”) are highly experienced arbitrators based
primarily in the People’s Republic of China and Hong
Kong, SAR, China.
Amicus curiae Dr. Xu Guojian is the Distinguished
Dean and Professor of International Law School,
Shanghai University of Political Science and Law.
Dr. Xu studied law at Southwest China University of
Politics and Law, Chongqing, China and Wuhan
University, Wuhan, China, for his Bachelor of Laws,
Master of Laws and Doctor of Laws respectively,
before going to Europe in 1988 to pursue further
legal education. Dr. Xu pursued advanced studies
at the Swiss Institute of Comparative Law, Lausanne,
Switzerland; the Academy of International Law, International Court of Justice, The Hague, Netherlands;
the Max-Planck-Institute for Foreign and International Private Law, Hamburg, Germany; and Albert
Ludwig University, Freiburg i.Br., Germany. He concluded his doctoral studies at Hamburg University.
He has been published many times, including in the
Journal of International Arbitration, the International
and Comparative Law Quarterly, the Lloyd’s Maritime and Commercial Law Quarterly, and others.
Dr. Xu has extensive experience as a practicing attorney. Dr. Xu’s main fields of practice include foreign
direct investment in China, international merger and
1

Under Rule 37.6 of the Rules of this Court, the undersigned
hereby state that no counsel for a party authored any part of this
brief, in whole or in part, and no person other than amici curiae
or their counsel made any monetary contribution towards the
preparation or submission of this brief. Written confirmation of
consent to this filing has been received from counsel of record for
all parties.

2
acquisitions, technology transfer, intellectual property
rights and international commercial arbitration.
Dr. Xu is one of the leading arbitration practitioners
in China, having represented clients from China, USA,
UK, Germany, Switzerland and other countries, and
handled numerous international commercial arbitration cases In addition, he has been appointed as
an arbitrator of the China International Economic
and Trade Arbitration Commission (“CIETAC”), the
Shanghai International Arbitration Center (“SHIAC”),
the Shanghai Arbitration Commission, the Nantong
Arbitration Commission and the Korean Commercial
Arbitration Board (“KCAB”). As an arbitrator, Dr. Xu
has rendered more than 200 arbitration awards on
disputes covering international trade, construction,
real estate transactions, technology transfer, banking,
insurance and financial transactions and foreign
investment.
Amicus curiae Li Hongji has been a practicing
attorney for more than thirty years. Mr. Li is the Head
of Dispute Resolution Department of Commerce &
Finance Law Offices. He obtained degrees from Peking
University, China University of Political Science and
Law, Cornell University, and McGill University. Mr.
Li is a member of the bar of the People’s Republic of
China, and the New York bar. He also serves as an
arbitrator on the panels of multiple major arbitration
commissions, including CIETAC, the Beijing Arbitration Commission/Beijing International Arbitration
Center (“BAC/BIAC”), the Shanghai International
Economic and Trade Arbitration Commission, the
Qingdao Arbitration Commission, among others. Over
the years, he has served as arbitrator in more than 300
cases.

3
Amicus curiae Zhu Yongrui (Raymond) joined the
PRC bar in 1995, and he specializes in international
dispute resolution representing domestic and international clients either in litigation or arbitration proceedings. His practice includes acting as counsel and
sitting as mediator and arbitrator. He is a fellow
of the Chartered Institute of Arbitrators (FCIArb)
and Singapore Institute of Arbitrators (FSIArb)
and ranked in Chambers & Partners Asia Pacific
and Global as an international arbitration lawyer. Mr.
Zhu has more than fifteen years of experience in
resolving international disputes, ranging from sitting
as arbitrator to mediator or in other forms of ADR. He
is on the panels of arbitrators of the BAC/BIAC, the
Arbitration and Mediation Center of the Mauritius
Chamber of Commerce and Industry, the Hong Kong
International Arbitration Centre (“HKIAC”), KCAB,
and in the database of neutrals for the London Court
of International Arbitration and the Arbitration
Institute of the Stockholm Chamber of Commerce.
Amicus curiae Tang Qingyang is currently an
arbitrator and member of the Expert Advisory
Committee of CIETAC, and the director of the
Expert Advisory Committee of the Chongqing
Arbitration Commission. He has served as arbitrator
in 46 commercial dispute cases as chief arbitrator, sole
arbitrator and arbitrator, in matters involving China,
the United States, France, South Africa, Kenya and
other countries along with Hong Kong, SAR, China.
Amicus curiae Chi Manjiao is a Professor and
Founding Director for the Center for International
Economic Law and Policy, at the Law School of
University of International Business and Economics,
China. His recent teaching and publications focus on
international trade and investment law and policy,

4
dispute settlement, and global development and cooperation. Mr. Chi is Deputy Chair, Academic Forum on
ISDS Reform; Co-Chair, American Society of International Law Asia-Pacific Interest Group; Executive
Council Member, Chinese Society of International
Law, among others. He has been a Professor, Xiamen
University Law School; Senior Fellow, Center for
Global Cooperation Research (Germany); Li Ka Shing
Visiting Professor, McGill Law School (Canada);
James B. MacDonald Distinguished Visiting Professor, Wisconsin Law School (U.S.); Edwards Fellow,
Columbia Law School; and visiting fellow, Max-Planck
Institute of International Law, German Institute of
Development and UNIDROIT. He is on the panel of
many arbitration institutions in China and abroad,
such as the Singapore International Arbitration
Center (“SIAC”), CIETAC, and BAC/BIAC. During the
past fifteen years, Mr. Chi has acted as presiding,
party- or institution-nominated, sole, and emergency
arbitrator in dozens of international and domestic
cases under different rules. He has also served as
expert witness and amicus curiae in arbitration or
arbitration-related court proceedings in China and the
United States.
Amicus curiae Ronald Sum concentrates his practice
in all areas of dispute resolution, specializing in China
related matters, cross border disputes, complex
commercial disputes, including arbitration, litigation,
mediation and investigations. Mr. Sum is qualified as
a solicitor in Hong Kong, England and Wales and
Australia. He is a fellow member of the Hong Kong
Institute of Arbitrators and the fellow member of the
Chartered Institute of Arbitrators. He is the immediate past chairman of the International Chamber of
Commerce: Arbitration and ADR Sub-Committee.

5
He is also the council member of the Hong Kong
International Arbitration Centre. He is on the panel
of arbitrators of various institutions and has acted
both as counsel and arbitrator in administered arbitration proceedings including the ICC, HKIAC, CIETAC,
SCIA, SIAC, THAC, LMAA, GAFTA/FOSFA, and more.
Mr. Sum has conducted arbitrations in Hong Kong,
China, London, the United States, Australia and
Singapore. Mr. Sum is also an accredited mediator of
HKMAAL, CIETAC and the Law Society of Hong
Kong. Mr. Sum has recently been appointed as an
Investor State Mediator under the Mainland and
Hong Kong Closer Economic Partnership Arrangement
(CEPA). Mr. Sum is a council member of the Hong
Kong Mediation Council. He also sits on the Hong
Kong Government Advisory Committee on the Promotion
of Arbitration and the Hong Kong Steering Committee
on Mediation.
Amicus curiae Dr. Zhang Guanglei earned his
degrees of LL.B., LL.M. and Ph.D. in Law from China
University of Political Science & Law. While in the
U.S., he obtained his LL.M. degree from The George
Washington University Law School and was also a
visiting scholar at Columbia University Law School.
Dr. Zhang has been admitted to practice law in the
PRC and the State of New York. Dr. Zhang specializes
in dispute resolution, including civil and commercial
litigation, arbitration and mediation. Dr. Zhang has
represented clients in hundreds of cases before CIETAC,
BAC/BIAC, SHIAC, the Shenzhen Court of International
Arbitration, the Zhuhai Court of International
Arbitration, HKIAC, ICC International Court of
Arbitration, and courts of different levels in China. In
addition, Dr. Zhang has served as Arbitrator of HKIAC,
Hainan International Arbitration Court, and Zhuhai
Arbitration Commission; adjunct professor at the School

6
of Law, University of International Business and Economics; and adjunct professor at the School of Juris
Master, China University of Political Science & Law.
Collectively, the Arbitrators have served as the
neutral in hundreds of arbitration disputes, with
decades of collective experience. In addition to serving
as arbitrators, several of the Arbitrators also work in
private practice as arbitration counsel to parties or as
legal scholars in the field of international arbitration.
In supporting the position of the Respondents, RollsRoyce PLC and The Boeing Company (“Respondents”)
in this matter, the Arbitrators do not delve into the
legislative history or judicial interpretations of Section
1782’s core phrase currently under scrutiny by this
Court: “foreign or international tribunal.” 28 U.S.C.
§ 1782. Rather, the Arbitrators seek to provide the
Court with pragmatic guidance on the current workings of private international arbitration based on the
Arbitrators’ experiences, along with their perspective
on policy considerations to guide the Court’s assessment of the issue presented in this case. The
Arbitrators urge the Court to look carefully at the
practical implications of their decision along with
public policy considerations.
Unlike litigation, which is an always-available tool
for dispute resolution so long as jurisdiction is established, arbitration is a product of the agreement between
the parties. See, e.g., Roy Goode, Herbert Kronke and
Ewan Mckendrick, Transnational Commercial Law,
Oxford University Press 2007, p. 622. Commercial
international arbitration in particular is recognized as
“a private method of dispute resolution, chosen by the
parties themselves as an effective way of putting an
end to disputes between them.” Alan Redfern and

7
Martin Hunter, Law and Practice of International
Commercial Arbitration, Sweet & Maxwell 2004, p. 1.
As long-time international arbitration participants
in China and the Asia-Pacific region, the undersigned
Arbitrators support the efficient functioning of the
international arbitration system as a whole. The
Arbitrators have an interest in ensuring that the
promise of arbitration continues to be delivered – the
efficient, fair, and final resolution of disputes. These
benefits of arbitration are best supported by a brightline rule excluding private arbitration from the scope
of Section 1782.
As a result, the Arbitrators
respectfully urge this Court not to extend Section 1782
to private international or foreign arbitration.
As arbitrators and practitioners based primarily in
mainland China, the Arbitrators commonly handle
arbitration matters before CIETAC, HKIAC, and
SIAC, among others. The Arbitrators offer the
following brief background on these three arbitral
institutions, although there are many others in the
Asia-Pacific region and worldwide.2
CIETAC is headquartered in Beijing, China, with
sub-commissions in multiple locations throughout
mainland China. CIETAC was first established in
1956 under the name of a predecessor entity, and it
has grown into a well-known and globally respected
arbitral institution. In 2020, a total of 3,615 new cases
were registered, representing about 8.5% growth from
2019. CIETAC reported that it handled disputes
amounting in total to approximately USD $17.3 billion
(RMB112.13 billion). In 2020, 739 cases were “foreign-

2

The rules of procedure for those other institutions are largely
similar to the ones identified in more detail here.

8
related cases,” up from 617 in 2019. In 67 of these
foreign-related cases, both parties were foreign. See
CIETAC, CIETAC 2020 Work Report and 2021 Work
Plan, at https://tinyurl.com/yvewkph8 (last visited
June 27, 2021).
HKIAC was established in 1985 in Hong Kong. In
addition to providing a forum for the arbitration of
disputes, HKIAC also administers mediation and adjudication of disputes. HKIAC reported that its arbitration
caseload totaled 318 new cases in 2020. The total
amount in dispute in 2020 was approximately USD
$8.8 billion, the highest amount since HKIAC began to
publish such information. In 2020, about 72% of all
arbitrations submitted to HKIAC were international,
with at least one party not from Hong Kong. In 2020,
the vast majority of the arbitrations submitted to
HKIAC applied the HKIAC Administered Arbitration
Rules, with about 70% of all HKIAC arbitrations
applying those rules. See HKIAC, 2018 Administered
Arbitration Rules, at https://www.hkiac.org/arbitrat
ion/rules-practice-notes/hkiac-administered-2018 (last
visited June 27, 2021) (“HKIAC AA Rules”). About 25%
of HKIAC arbitrations applied ad hoc rules of the
parties’ choosing, and the balance applied other rules.
See HKIAC, 2020 Statistics, at https://www.hkiac.org/
about-us/statistics (last visited June 27, 2021).
SIAC was established in 1991 as a non-profit organization to administer arbitration disputes in Singapore.
In 2020, SIAC handled 1,080 new arbitration case
filings. Of the 1,080 cases, 98% were cases administered by SIAC, and the remaining 2% of cases were
ad hoc appointments. SIAC’s total sum in dispute for
2020 was approximately USD $8.49 billion. Approximately half of the arbitration cases filed with SIAC
have no connection with Singapore, and parties from

9
60 different jurisdictions chose to arbitrate at SIAC in
2020. See SIAC, About Us, at https://tinyurl.com/
74kfe22e (March 31, 2021); see also SIAC, Frequently
Asked Questions, 14, at https://www.siac.org.sg/faqs
(last visited June 27, 2021).
SUMMARY OF ARGUMENT
The core issue presented in this appeal is whether
28 U.S.C. § 1782 applies to private foreign or international commercial arbitration. The Arbitrators support
the position of the Respondents in this action that
Section 1782 does not, and should not, apply to private
arbitration.
First, Section 1782 discovery in the context of
private arbitration is contrary to key favorable characteristics of arbitration, including its efficiency, fairness,
and finality.
Second, discovery under Section 1782 is not necessary
for the successful resolution of private arbitration
disputes.
Third, because arbitration panels are constituted for
a particular dispute and then disbanded, there is no
mechanism for either international comity or predispute evaluation of a Section 1782 petition.
ARGUMENT
The Arbitrators support the position of the Respondents, that Section 1782 does not apply to private
arbitration. The Arbitrators do not present arguments
on the statutory interpretation, legislative history, or
judicial precedent regarding Section 1782, but rather
focus on the providing the Court with pragmatic and
policy guidance on the application of Section 1782 to
private commercial arbitration from the perspective of
experienced arbitrators.

10
In arbitration, the parties’ agreement is paramount.
International rules of law support this principle. For
example, the Convention on the Recognition and Enforcement of Foreign Arbitral Awards (the “Convention”)
provides that the recognition and enforcement of the
award may be refused only on very narrow grounds.
One of those narrow grounds is if “the composition of
the arbitral authority or the arbitral procedure was
not in accordance with the agreement of the parties,
or, failing such agreement, was not in accordance with
the law of the country where the arbitration took
place.” Convention, Article V(d), June 10, 1958, 21
U.S.T. 2520, 330 U.N.T.S. 42 (emphasis added). This
enforcement provision endorses the parties’ agreement as the cornerstone of commercial arbitration.
Parties to an arbitration proceeding can select
either institutional arbitration rules or ad hoc rules,
subject to the parties’ choice. In addition, by consent,
the parties may modify the rules of arbitration procedure to suit the needs of their particular dispute. This
flexibility and emphasis on party choice is a key
feature of arbitration. Likewise, any rules about the
taking of evidence will be governed by the parties’
agreement in determining the applicable rules. For
example, the International Bar Association’s IBA Rules
on the Taking of Evidence in International Arbitration
are some of the most frequently used rules in international arbitration proceedings. Those rules provide
that “Parties and Arbitral Tribunals are free to adapt
[the rules] to the particular circumstances of each
arbitration.” Id. at Preamble, at https://tinyurl.com/
8m7jkh2a (Dec. 17, 2020).
The Arbitrators acknowledge that a conclusion by
this Court that Section 1782 is available to private
commercial arbitration only with the consent of the

11
appointed arbitrator and the arbitration parties would
be consistent with the Arbitrators’ position. However,
the Arbitrators more strongly support a bright-line
rule that excludes commercial arbitration from the
ambit of Section 1782. A bright-line rule will best
support the purpose and benefits of arbitration. Anything
less than a bright-line exclusion will encourage collateral litigation under Section 1782, which detracts from
the efficiency, fairness, and finality of arbitration.
Moreover, the expansive language of Section 1782 and
its previous interpretation by this Court in Intel Corp.
v. Advanced Micro Devices, Inc., 542 U.S. 241, 248,
(2004), render it difficult to conclude that Section 1782
may only extend to private arbitration with the consent of an appointed arbitrator and the parties. Among
other issues, a petition for discovery under Section
1782 may be brought upon “reasonable contemplation”
of a dispute by “any interested person.” Intel, 542
U.S. at 259; 28 U.S.C. § 1782. In addition, it is wellestablished that Section 1782 petitions may be presented
ex parte. See, e.g., Gushlak v. Gushlak, 486 F. App'x
215, 217 (2d Cir. 2012) (“it is neither uncommon nor
improper for district courts to grant applications made
pursuant to § 1782 ex parte.”). As a result, to preserve
the benefits of arbitration and to uphold parties’
expectations when they select arbitration, the best
construction of Section 1782 is a bright-line exclusion
of private commercial arbitration.
I. Discovery Under Section 1782 Is Contrary
to Key Favorable Characteristics of
Arbitration.
Private commercial arbitration is often favored as a
dispute resolution mechanism because of its efficiency,
fairness, finality, and emphasis on party autonomy,
among other salient features.

12
Because the expansion of Section 1782 to arbitration
is contrary to these well-recognized favorable characteristics of arbitration, the Arbitrators respectfully
contend that Section 1782 should not encompass
private international or foreign arbitration.
A. Streamlined Discovery in Arbitration
Promotes Efficiency and Fairness.
Generally, pre-hearing discovery in foreign or international arbitration is limited. The default procedural
rules of CIETAC, HKIAC, and SIAC, for example, do
not allow for depositions or interrogatories, which are
common discovery tools in U.S. litigation. The parties
have an affirmative duty to produce all documents
upon which they intend to rely, without the need for a
counterparty’s request. For example, under the SIAC
rules, the parties are under an affirmative obligation
to share all documents in support of their position,
without waiting for a request from any counterparty.
See SIAC, SIAC 2016 Rules, at https://www.siac.org.
sg/our-rules/rules/siac-rules-2016 (last visited June 27,
2021) (“SIAC Rules”), SIAC Rule 20.7 (“All submissions
referred to in this Rule shall be accompanied by copies
of all supporting documents which have not previously
been submitted by any party.”). Likewise, under the
HKIAC AA Rules, the parties have an affirmative
obligation to submit all supporting materials. See
HKIAC AA Rules, Article 16, Rule 16.3 (“The Claimant
shall annex to its Statement of Claim all supporting
materials on which it relies.”); see also id., Rule 17.4
(“The Respondent shall annex to its Statement of
Defence all supporting materials on which it relies.”).
This practice tends to streamline discovery. In the
experience of the Arbitrators, parties to international
or foreign arbitration generally understand that the
goal of prehearing discovery is to accumulate enough

13
evidence to present one’s position, not to conduct an
exhaustive search for information. When parties select
arbitration as their mechanism for dispute resolution,
they do so with the knowledge that arbitration procedures do not allow the parties to unearth every last
shred of evidence. Far from being a shortcoming of
arbitration, this aspect is a key feature. Broad-strokes
discovery under Section 1782 is therefore contrary to this
feature of arbitration that parties intentionally select
when they choose to arbitrate a dispute.
B. Allowing Section 1782 Discovery in Aid
of Arbitration Will Spawn Burdensome
Collateral Litigation.
The Arbitrators’ concern about applying Section
1782 to foreign or international arbitration is not just
about the resultant discovery and whether it is helpful
for the arbitral process. Rather, another key concern
is the burden on the parties and the dispute resolution
process itself created by collateral litigation under
Section 1782. As highlighted by the facts of the matter
currently before this Court, this collateral litigation
can arise in multiple jurisdictions simultaneously.
See, e.g., Servotronics, Inc. v. Rolls-Royce PLC, 975
F.3d 689, 690 (7th Cir. 2020) and Servotronics, Inc. v.
Boeing Co., 954 F.3d 209, 210 (4th Cir. 2020) (reaching
contrary conclusions on the same issue of law).3
3

Because of the uncertainty created by the federal circuit split
on the application of Section 1782 to private commercial arbitration, the Arbitrators urge the Court to resolve the issue now
presented, despite the mootness arguments raised by Respondents
Rolls-Royce and Boeing. Under the current split, parties or
interested persons may, or may not, be able to obtain discovery
based upon a private arbitration depending solely on the location
of the discovery target within the United States. The Arbitrators
urge the establishment of a uniform bright-line rule.

14
Collateral litigation under Section 1782 drives up
the overall costs of a dispute. The Arbitrators have a
concern, as well, that only well-resourced parties will
be able to navigate the U.S. court system to pursue
Section 1782 discovery, thus creating a further
imbalance between parties with different means.
Even though arbitration is generally intended as a
cost-effective and streamlined process, collateral litigation under Section 1782 creates a risk of diminishing
that economic efficiency. Other U.S. courts have
recognized this risk. See, e.g., Republic of Kazakhstan
v. Biedermann Int'l, 168 F.3d 880, 883 (5th Cir. 1999)
(“The course of the litigation before us suggests that
arbitration’s principal advantages may be destroyed if
the parties succumb to fighting over burdensome
discovery requests far from the place of arbitration.”).
Further, there is an appreciable risk that collateral
litigation under Section 1782 would slow down the
arbitration proceedings, as one or more parties may
request that an arbitration should be stayed pending
resolution of a Section 1782 petition. See Rolls-Royce
Br., p. 14 (“Although the arbitrators here declined to
stay their proceedings, nothing prevents other
arbitrators from staying arbitrations for section 1782
proceedings.”).
Section 1782 can also be used as a tool to burden or
harass an opposing party to an arbitrated dispute,

In addition, arbitration rules of procedure often require prompt
resolution of arbitration matters. For example, the CIETAC
Rules call for the arbitrator to “render an arbitral award within
six (6) months from the date on which the arbitral tribunal is
formed.” CIETAC, 2015 CIETAC Arbitration Rules, at http://
www.cietac.org/Uploads/201902/5c6148b100105.pdf (“CIETAC
Rules”), Article 48.1. Although this period may be extended, the
rules nevertheless disfavor delay.

15
which is problematic and contrary to the confidentiality of arbitration. Cf. Del. Coal. for Open Gov't, Inc. v.
Strine, 733 F.3d 510, 518 (3d Cir. 2013) (recognizing
that “[c]onfidentiality is a natural outgrowth of the
status of arbitrations as private alternatives to government-sponsored proceedings.”). The Arbitrators are
aware in particular of one recently arbitrated dispute
conducted through CIETAC that resulted in Section
1782 discovery in the United States. Although the
parties to the CIETAC dispute were a Chinese hospital
and affiliates of a U.S.-based fertility business, the
Section 1782 petition targeted the individual principals
of the Chinese hospital, along with a family member of
the principals who was living in the United States and
their small business holdings in the United States.
The matter reached the Ninth Circuit, in the matter of
In re: Application of HRC-Hainan Holding Co., LLC,
No. 20-15371 (stayed). Even though it was a thinlyveiled fishing expedition, the California federal court
granted the discovery with few limitations. The lower
court gave no weight to the fact that the arbitrators
had not expressed interest in the requested documents,
instead concluding that the arbitrator could simply
disregard the acquired evidence if it was not useful.
See HRC-Hainan Holding Co., LLC v. Yihan Hu, No.
19-mc-80277-TSH, 2020 U.S. Dist. LEXIS 32125, at
*24-25 (N.D. Cal. Feb. 25, 2020) appeal filed sub nom.
In re: Application of HRC-Hainan Holding Co., LLC,
No. 20-15371 (9th Cir.) (“[Section] 1782(a) . . . does not
require the foreign or international tribunal to accept
evidence produced by that discovery. The tribunal can
simply refuse such evidence if it would burden the
efficiency of proceedings.”). Such an approach is
contrary the efficiency sought by the parties when
they opt into arbitration, and threatens to encourage
burdensome or “fishing” litigation under Section 1782.

16
C. Arbitration Supports Party Autonomy
By Giving the Parties Control Over the
Proceeding.
When parties choose arbitration and certain rules of
procedure to govern resolution of their dispute, it is
reasonable to conclude that they are not silently
choosing those rules plus Section 1782. This principle
is reflected by the arbitration rules themselves. See,
e.g., Rule 1.1 of the SIAC Rules of Procedure (“Where
the parties have agreed to refer their disputes to SIAC
for arbitration or to arbitration in accordance with the
SIAC Rules, the parties shall be deemed to have agreed
that the arbitration shall be conducted pursuant to
and administered by SIAC in accordance with these
Rules.”). Particularly where the arbitration agreement is silent as to Section 1782 – and the Arbitrators
do not recall encountering any arbitration clauses that
specifically address Section 1782 – it is contrary to the
parties’ intention to graft Section 1782 onto the
selected arbitration procedures.
Even tightening up the lower court’s discretion over
Section 1782 for international arbitration will not
solve this inherent conflict. Other amici have urged
that this would be a sufficient balance. See, e.g.,
International Chamber of Commerce Br. (“ICC Brief”),
p. 7 (“The ICC Court submits that, generally, the
discretion of the U.S. court should be exercised against
Section 1782 discovery when there are concerns about
the receptivity of an arbitral tribunal to the Section
1782 discovery.”)
However, in the view of the
Arbitrators, narrowing the U.S. courts’ discretion over
Section 1782 petitions in aid of foreign or international
arbitration is not sufficient. Arbitration is intended to
be a creature of the parties’ consent. Cf. Volt Info. Scis.
v. Bd. of Trs., 489 U.S. 468, 479 (1989) (“Arbitration

17
. . . is a matter of consent, not coercion, and parties are
generally free to structure their arbitration agreements as they see fit.”).
If the parties select
arbitration, then that intention should be upheld.
Moreover, merely tightening the U.S. courts’
discretion does not give parties and participants the
certainty of a bright-line rule, thus continuing to
incentivize collateral litigation outside of a main arbitration dispute, to the detriment of the international
arbitration system.
The breadth of Section 1782, as written and interpreted by the U.S. courts, is incompatible with the
fundamental arbitral principle of party autonomy for
at least two reasons. First, Section 1782 expressly
permits any interested person to seek discovery under
Section 1782. See 28 U.S.C. § 1782 (“The order may be
made . . . upon the application of any interested
person[.]”). Even if the parties to an arbitrated dispute
intend only for the arbitration rules of procedure to
govern their gathering of evidence, Section 1782 nevertheless permits an interested third party to commence
a potentially burdensome discovery expedition in the
United States, which may require intervention and
defense by one or more parties to the arbitration.
Although the U.S. courts retain discretion to deny
such an application, anything less than a bright-line
rule will continue to incentivize collateral attempts at
discovery under Section 1782.
Second, discovery applications under Section 1782
may be submitted ex parte, without notice to the
arbitration parties, which is incompatible with party
autonomy in arbitration. See, e.g., Gushlak, 486 F.
App’x at 217 (“it is neither uncommon nor improper for
district courts to grant applications made pursuant to
§ 1782 ex parte.”) A key feature of arbitration is that

18
the parties’ collective decisions about the rules of
procedure are paramount. An ex parte proceeding in
the United States, commenced without notice by any
interested party – including by a non-party to the
arbitration – is contrary to this principle that the
parties’ mutual consent is paramount in arbitration.
D. Arbitrators Have Broad Discretion to
Manage Disputes, Leading to Streamlined
Proceedings.
In private commercial arbitration, the arbitrator
plays an important role in managing the proceedings.
Because arbitration is not reviewable except on very
narrow grounds, the decisions of an arbitrator on
routine procedural issues are generally not reviewable. This system gives the arbitrator significant
control over the proceedings and an ability to promote
efficient resolution of disputes.
Some specific examples are illustrative of this efficiency and control, and how Section 1782 litigation
and discovery are contrary to these principles. In
CIETAC proceedings seated in the People’s Republic
of China – which would be a “foreign or international”
arbitration – the arbitration panel controls and dominates evidence production. For example, a CIETAC
arbitrator may specify a time period for the parties to
produce evidence and strictly refuse to admit any evidence produced after that time. See CIETAC Rules,
Article 41.2. In addition, an arbitrator for a dispute
under CIETAC rules “may undertake investigation and
collect evidence as it considers necessary.” CIETAC
Rules, Article 43.1.

19
As another example, under the SIAC rules adopted
in 2016, the arbitrator or panel controls the prehearing
discovery process. See, e.g., SIAC Rule 27(f) (“[T]he
tribunal shall have the power to . . . order any party to
produce to the Tribunal and to the other parties for
inspection, and to supply copies of, any document in
their possession or control which the Tribunal considers relevant to the case and material to its outcome[.]”);
SIAC Rule 27(h) (“[T]he tribunal shall have the power
to . . . direct any party or person to give evidence by
affidavit or in any other form[.]”). The arbitration
rules of procedure also allow the arbitrator to request
certain discovery from the parties. In the experience
of the Arbitrators, this mechanism is used when
needed by the facts of a particular dispute. See, e.g.,
HKIAC AA Rules, Article 22, Rule 22.3 (“At any time
during the arbitration, the arbitral tribunal may allow
or require a party to produce documents, exhibits or
other evidence that the arbitral tribunal determines to
be relevant to the case and material to its outcome.”).4
As a further example, under the HKIAC AA Rules,
the arbitrator or arbitrators have significant discretion to adopt suitable procedures for the particular
dispute. See HKIAC AA Rules, Article 13, Rule 13.1
(“Subject to these Rules, the arbitral tribunal shall
adopt suitable procedures for the conduct of the arbitration in order to avoid unnecessary delay or expense,
having regard to the complexity of the issues, the
amount in dispute and the effective use of technology,
and provided that such procedures ensure equal treatment of the parties and afford the parties a reasonable
4

The use of the word “tribunal” in the English versions of
the SIAC, CIETAC, or HKIAC rules should have no bearing on
this Court’s statutory interpretation of the phrase “foreign or
international tribunal” as used by the U.S. Congress in 1964.

20
opportunity to present their case.”). The rules recognize that tailored procedures, adopted by the arbitrator,
are the best means to deliver the promise of arbitration.
Finally, the rules of procedure for most arbitration
institutes contain a general default provision favoring
the efficient resolution of disputes. For example, the
SIAC Rules provide that “[i]n all matters not expressly
provided for in these Rules, the President, the Court,
the Registrar and the Tribunal shall act in the spirit
of these Rules and shall make every reasonable effort
to ensure the fair, expeditious and economical conclusion of the arbitration and the enforceability of any
Award.” SIAC Rule 41.2 (emphasis added).
When parties choose arbitration as their mechanism
for dispute resolution, they are intentionally selecting
a highly-empowered decisionmaker, who will proceed
in an efficient, fair, and economical manner. The
expansive scope of Section 1782 is inconsistent with
this party intention.
II. Discovery Under Section 1782 is Not
Necessary for the Successful Resolution of
Arbitration Disputes.
Simply put, additional discovery under Section 1782
is not necessary for fair resolution of arbitrated
disputes, in addition to being contrary to key features
of arbitration. Private international and foreign
arbitration proceedings follow well-established rules
of procedure for gathering pre-hearing evidence.
Based on the Arbitrators’ cumulative experience
over hundreds of arbitration disputes, the Arbitrators
are confident that additional discovery under Section
1782 is simply not necessary for the successful
resolution of arbitration disputes.

21
Arbitration rules of procedure already allow for prehearing exchange of evidence. Unlike “discovery” in
the United States, most of the evidence exchanged
under arbitration rules is provided without request.
Instead, the parties are under an affirmative obligation to share all documents that support their
positions. See, e.g., SIAC Rule 20.7; HKIAC AA Rules,
Article 16, Rule 16.3. Moreover, the arbitrator has
significant power to order the exchange of evidence
when the arbitrator deems it necessary. See, e.g.,
CIETAC Rules, Article 43.1.
In the collective experience of the Arbitrators, these
discovery tools are sufficient to provide a fair adjudication of disputes. When parties select international or
foreign arbitration for resolution of their disputes,
they do so with the intention that the evidencegathering tools provided by those arbitral bodies will
be sufficient.5
Discovery under Section 1782 has been rare, to date,
in the arbitrations in which the Arbitrators have been
involved. This rarity of Section 1782 supports the
conclusion that Section 1782 is unnecessary. All of the
remaining disputes were fairly resolved in the absence
of Section 1782 discovery. There is a serious risk that
a decision by this Court conclusively extending Section

5

Moreover, the Chinese court system does not allow for
“discovery” in the same sense as in the U.S. court system. As is
typically seen in commercial arbitration as well, the parties have
an affirmative obligation to produce evidence in support of their
position. In addition, the parties may petition the court to
command third parties to produce evidence, which the court may
order or deny within its sole discretion. In general, Chinese trial
courts follow an inquisitorial style of dispute resolution, in which
the judge plays a primary role.

22
1782 to private arbitration will cause collateral
litigation to skyrocket, thus ratcheting up the costs of
dispute resolution and imperiling the benefits of
arbitration.
III. The Arbitral Panel is Only Empowered
for a Particular Dispute, Thus Limiting
its Role in International Comity and
Pre-Dispute Evaluation of a Section 1782
Petition.
Unlike judicial or quasi-judicial forums for dispute
resolution, an arbitral panel is constituted for the
resolution of a particular dispute, and then it is
disbanded. Thus, the prospect of international comity
is not advanced by extending Section 1782 to private
arbitration, because neither arbitral panels nor arbitration institutions have such power. In addition, the
courts cannot rely on “checking in” with an arbitrator
before exercising discretion over a Section 1782 petition
under the Intel factors, because an arbitral panel is not
constituted until a particular dispute is presented. See
Rolls-Royce Br., p. 48 (“That inquiry is impossible
when, as here, someone files a section 1782 application
before the parties even select arbitrators.”). As established by the Court in Intel, discovery under Section
1782 can be sought by an “interested person” in aid of
a “reasonably contemplated” proceeding, one for which
no arbitrator has been assigned and perhaps no
arbitral forum has even been selected. See Intel, 542
U.S. at 259.
A. Arbitration Panels are Not Equipped
to Offer Comity with Governmental
Tribunals.
One of the fundamental purposes of Section 1782 is
the encouragement of international comity between

23
governments. See id. at 248 (“In 1958, prompted by
the growth of international commerce, Congress
created a Commission . . . to ‘investigate and study
existing practices of judicial assistance and cooperation between the United States and foreign countries
with a view to achieving improvements.’”) (quoting
Act of Sept. 2, Pub L 85-906, § 2, 72 Stat 1743; S. Rep.
No. 2392, 85th Cong., 2d Sess., 3 (1958)); see also
Biedermann, 168 F.3d at 883 (“The provision was
enlarged to further comity among nations, not to
complicate and undermine the salutary device of
private international arbitration.”).
Although Section 1782 is intended to promote international comity, arbitration panels are not equipped
to reciprocate. Each arbitration panel is constituted
for a particular dispute, and then disbanded. Arbitral
panels are non-governmental and do not have the
powers of a governmental entity. As noted above,
many arbitrators also work in private practice, and
they are only empowered to resolve a particular
dispute by the agreement of particular parties. Nor
are arbitration bodies, such as CIETAC, HKIAC, or
SIAC, empowered to provide reciprocal discovery. The
arbitration bodies provide procedural rules, administrative support, and other benefits for arbitration,
but only subject to party selection. Thus, unlike courts
of another country that could be empowered by statute
to provide reciprocity, an arbitration center cannot
offer any reciprocity for the discovery assistance
offered by the U.S. courts under Section 1782.

24
B. Because No Arbitration Panel Exists
Pre-Dispute for Assessment of Scope of
Proposed Section 1782 Discovery, the
High Deference Proposed by Other
Amici is Insufficient.
Other amici curiae have proposed that the courts’
discretion over Section 1782 should be tightly aligned
with the interests of the arbitration tribunal. See, e.g.,
ICC Br., p. 4 (“a U.S. court weighing a Section 1782
petition should afford a very high degree of deference
to the arbitral tribunal’s views on the discovery sought.”).
Although this may be a reasonable proposal in the
context of an ongoing arbitrated dispute, it overlooks
the fact that no arbitral decisionmaker is appointed
pre-dispute. As confirmed by this Court in Intel,
Section 1782 is an available tool for “reasonably
contemplated” disputes, in addition to on-going disputes.
See Intel, 542 U.S. at 259 (Section 1782 “requires only
that a dispositive ruling . . . be within reasonable
contemplation.”).
In such a circumstance, there are no arbitrators to
weigh in on a request for discovery under Section 1782.
It is also possible that no arbitral forum or rules of
procedure would have been selected pre-dispute, depending on the governing arbitration clause.
Anything less than a bright-line exclusion of arbitration from the purview of Section 1782 will encourage
collateral litigation, contrary to the parties’ intentions
and the promise of arbitration. Because Section 1782
may be invoked pre-dispute, the tightening of the courts’
discretion is insufficient. The Arbitrators are not aware
of a possible statutory interpretation of Section 1782
that would avoid this pre-dispute problem. Moreover,
even tightening discretion fails to avoid the problem of

25
incentivizing collateral litigation to test the boundaries
of discretion. Therefore, the Arbitrators respectfully
urge that the better conclusion is a bright-line exclusion of private arbitration from the scope of Section
1782, to protect and promote the favorable characteristics of international arbitration.
CONCLUSION
For the foregoing reasons, the Arbitrators support
the position of the Respondents in this matter.
Respectfully submitted,
KATHERINE BURGHARDT KRAMER
Counsel of Record
RONGPING WU
DGW KRAMER LLP
One Rockefeller Plaza, Suite 1060
New York, NY 10020
(917) 633-6860
kkramer@dgwllp.com
Counsel for Amici Curiae
June 28, 2021

